      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                      Washington, D.C. 20201




August 25, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Jurisdiction B Medicare Payments for Selected Durable Medical
              Equipment Claims With the KX Modifier for Calendar Year 2007
              (A-05-09-00094)


Attached, for your information, is an advance copy of our final report on Jurisdiction B Medicare
payments for selected durable medical equipment claims with the KX modifier for calendar year
2007. We will issue this report to National Government Services, the durable medical equipment
Medicare administrative contractor for Jurisdiction B, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James C. Cox, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at James.Cox@oig.hhs.gov. Please refer to report number A-05-09-00094.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

August 30, 2010

Report Number: A-05-09-00094

Mr. David Barnett
Jurisdiction B DME MAC Project Manager
National Government Services
8115 Knue Road
Indianapolis, IN 46250

Dear Mr. Barnett:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Jurisdiction B Medicare Payments for Selected
Durable Medical Equipment Claims With the KX Modifier for Calendar Year 2007. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through email at
Jaime.Saucedo@oig.hhs.gov. Please refer to report number A-05-09-00094 in all
correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. David Barnett


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF JURISDICTION B
   MEDICARE PAYMENTS
  FOR SELECTED DURABLE
MEDICAL EQUIPMENT CLAIMS
  WITH THE KX MODIFIER
 FOR CALENDAR YEAR 2007




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-05-09-00094
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1) and 1861(n) of the Social Security Act (the Act), Medicare Part
B provides for the coverage of durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS). As a result of the Medicare Prescription Drug, Improvement, and Modernization
Act of 2003, the Centers for Medicare & Medicaid Services (CMS) contracted with four durable
medical equipment Medicare administrative contractors (DME MAC) to process and pay
Medicare Part B claims for DMEPOS. These DME MACs replaced the Durable Medical
Equipment Regional Carriers. Also, CMS contracts with Palmetto Government Benefits
Administrators, LLC, to serve as the National Supplier Clearinghouse. The National Supplier
Clearinghouse is responsible for enrolling and reenrolling DMEPOS suppliers.

Under the statutory and policy framework of the Act, the Medicare National Coverage
Determinations Manual defines DME as equipment that can withstand repeated use, serves a
medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home. For certain DMEPOS, suppliers must use the KX
modifier on filed claims. The KX modifier indicates that the claim meets the Medicare coverage
criteria and the supplier has the required documentation on file. While suppliers must have a
written physician’s order and proof of delivery for all DMEPOS, suppliers must have additional
documentation on file for items requiring the KX modifier. For example, respiratory assist
devices also require documentation that a sleep study was performed before the date on the
physician’s order.

On January 6, 2006, CMS awarded the DME MAC contract for Jurisdiction B to AdminaStar
Federal, Inc. (AdminaStar) of Indianapolis, Indiana. AdminaStar assumed full responsibility for
administering the DME MAC work and began processing DMEPOS claims for Jurisdiction B on
July 1, 2006. Effective January 1, 2007, AdminaStar changed its name to National Government
Services, Inc. (NGS).

NGS processed approximately $1.9 billion in Medicare DMEPOS claims with calendar year
2007 dates of service. This audit focused on $117,042,423 of Medicare paid claims processed by
NGS for therapeutic shoes for diabetics, continuous positive airway pressure systems, respiratory
assist devices, and pressure reducing support surfaces (groups 1 and 2) that included the KX
modifier.

OBJECTIVE

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to NGS had the required supporting documentation on file.

SUMMARY OF FINDINGS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to NGS had the required supporting documentation on file. Of the 100 sampled items, suppliers



                                                i
had the required documentation on file for 48 items. Suppliers did not have the required
documentation on file for the remaining 52 items. As a result, NGS made unallowable payments
totaling $3,986 for 52 of the 100 sampled items. Based on our sample, we estimated that NGS
paid approximately $55 million to suppliers who did not have the required documentation on file
to support the DMEPOS items with dates of service in 2007.

The types of missing documentation included:

   •   proof of delivery (28 of 100 items),

   •   physician’s order (28 of 100 items),

   •   use or compliant use followup documentation (18 of 78 applicable items),

   •   sleep study (3 of 78 applicable items), and

   •   physician’s statement (4 of 22 applicable items).

For 23 of the 52 items, suppliers were missing multiple required documents.

These errors occurred because NGS’s electronic edits in place were not effective for determining
whether suppliers had the required documentation on file when they used the KX modifier on
claims. The edits could only determine whether the required KX modifier was on the claim.

RECOMMENDATIONS

We recommend that NGS:

   •   recover the $3,986 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the 28 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action, and

   •   develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $55 million.

AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our recommendations. NGS stated
that it recognized that there are many challenges in addressing the problems with the KX
modifier. Nevertheless, NGS stated that it was committed to using its available resources to



                                                ii
assure that it meets coverage criteria and documentation requirements in its medical policies.
NGS’s comments are included in their entirety as Appendix D.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Contracts for Processing Medicare Durable Medical Equipment,
               Prosthetics, Orthotics, and Supplies Claims ................................................1
              KX Modifier Used for Durable Medical Equipment, Prosthetics,
               Orthotics, and Supplies Claims Processing .................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................3
               Objective .........................................................................................................3
               Scope ...............................................................................................................3
               Methodology ...................................................................................................3

FINDINGS AND RECOMMENDATIONS .......................................................................4

          MISSING REQUIRED DOCUMENTATION. ..........................................................5
               Proof of Delivery ............................................................................................5
               Physician’s Order ............................................................................................5
               Use or Compliant Use Followup Documentation ...........................................5
               Sleep Study .....................................................................................................6
               Physician’s Statement .....................................................................................6

          KX MODIFIER SYSTEM EDITS .............................................................................6

          EFFECT OF UNALLOWABLE PAYMENTS ..........................................................7

          RECOMMENDATIONS ............................................................................................7

          AUDITEE COMMENTS............................................................................................7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: ERROR DETAILS

          D: AUDITEE COMMENTS




                                                                    iv
                                                INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS).

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. These DME MACs
replaced the Durable Medical Equipment Regional Carriers. Also, CMS contracts with Palmetto
Governmental Benefits Administrators, LLC, to serve as the National Supplier Clearinghouse.
The National Supplier Clearinghouse is responsible for enrolling and reenrolling DMEPOS
suppliers. CMS will revoke a supplier’s billing privileges if it finds that the supplier does not
meet the supplier standards (42 CFR § 424.57(c) and (d)). 1

Contracts for Processing Medicare Durable Medical Equipment, Prosthetics, Orthotics,
and Supplies Claims

On January 6, 2006, CMS awarded the DME MAC contract for Jurisdiction B to AdminaStar
Federal, Inc. (AdminaStar), of Indianapolis, Indiana. AdminaStar assumed full responsibility for
administering the DME MAC work and began processing DMEPOS claims for Jurisdiction B on
July 1, 2006. Effective January 1, 2007, AdminaStar changed its name to National Government
Services, Inc. (NGS). NGS processes DMEPOS claims for Illinois, Indiana, Kentucky,
Michigan, Minnesota, Ohio, and Wisconsin.

KX Modifier Used for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
Claims Processing

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices including DMEPOS and generally
outline the conditions under which a service or device is considered covered. The Medicare
National Coverage Determinations Manual (Pub. No. 100-03, chapter 1, section 280.1) defines
DMEPOS as equipment that can withstand repeated use, serves a medical purpose, is generally
not useful to a person in the absence of illness or injury, and is appropriate for use in a patient’s
home.

Contractors develop supplier manuals, Local Coverage Determinations (LCD), and Policy
Articles for covered DMEPOS items. These materials specify under what clinical circumstances
the DMEPOS item is considered to be reasonable and necessary. For covered DMEPOS items
(including therapeutic shoes for diabetics (therapeutics shoes), continuous positive airway
1
    Federal requirements referenced in this document were in effect during our audit period.


                                                            1
    pressure systems (CPAP), respiratory assist devices (RAD), and pressure reducing support
    surfaces (groups 1 and 2) (PRSS)) 2, the LCDs require a KX modifier be added to the claims
    before they can be paid. By adding the KX modifier, the supplier attests that the claim meets the
    Medicare coverage criteria and that the specific required documentation, which varies based on
    the DMEPOS item, is on file at the supplier before submitting the claim to the DME MAC. This
    documentation requirement includes the written physician’s order and proof of delivery that are
    required for all DMEPOS, as well as additional documentation such as a sleep study for a RAD
    claim.

    Through supplier manuals, LCDs, and Internet postings, the contractors instructed the suppliers
    to use the KX modifier only if the suppliers have the required documentation on file. However,
    if the KX modifier is not used with claims for DMEPOS that require it, the claims will be denied.

    This audit focused on Medicare claims paid by NGS for therapeutic shoes, CPAPs, RADs, and
    PRSS.

        Documentation Requirements for Selected Durable Medical Equipment, Prosthetics,
                      Orthotics, and Supplies Requiring the KX Modifier

    Documentation
     Required to be                                                 Therapeutic
   on File at Supplier                 Required by                    Shoes            CPAP         RAD         PRSS
                                - Program Integrity
                                   Manual (PIM),
Physician’s Order                  Pub. No. 100-08,                        X              X           X           X
(written, signed, and              chapter 5
dated)                          - LCDs
                                - 42 CFR § 424.57(c)(12)
                                                                           X              X           X           X
Proof of Delivery               - PIM, chapter 4
                                - The Act, § 1861(s)(12)
Statement of                      (A-C)
                                                                           X                                      X
Treating/Certifying             - LCDs and Policy
Physician Before Billing          Articles
Polysomnography
(sleep study)
                                                                                          X           X
Before Physician’s              - NCD
Order                           - LCDs
Use or Compliant Use
Followup Statement of
                                                                                          X           X
Physician and/or
Beneficiary                     - LCDs


    2
     These DMEPOS are included in the Level II Healthcare Common Procedure Coding System, which is a
    comprehensive, standardized system that classifies similar medical products into categories for efficient claims
    processing. It is the standardized coding system used for describing, identifying, and preparing claims for
    DMEPOS.


                                                              2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to NGS had the required supporting documentation on file.

Scope

NGS processed approximately $1.9 billion in Medicare DMEPOS claims in Jurisdiction B with
calendar year 2007 dates of service. This audit focused on $117,042,423 of these Medicare paid
claims for therapeutic shoes, CPAPs, RADs, and PRSS that included the KX modifier.

We limited our review of internal controls to gaining an understanding of NGS’s processing of
selected DMEPOS claims that were submitted with the KX modifier. We did not determine
whether the sample items met other Medicare coverage criteria, such as medical necessity.

From September 2009 through January 2010, we conducted fieldwork at NGS’s offices in
Indianapolis, Indiana, and at suppliers’ offices in seven States.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal laws, regulations, and guidance;

       •   interviewed NGS officials concerning the manual and electronic claims processing
           procedures for claims for therapeutic shoes, CPAPs, RADs, and PRSS with the KX
           modifier and NGS’s edits in the claims processing system to ensure that claims were
           adjudicated;

       •   interviewed NGS officials concerning the education and training specific to the KX
           modifier that NGS provided to the suppliers of therapeutic shoes, CPAPs, RADs, and
           PRSS;

       •   selected a simple random sample of 100 items from four categories of DMEPOS
           (Appendix A);

       •   made unannounced visits to the 90 suppliers 3 to obtain their documentation supporting
           the use of the KX modifier;

       •   reviewed the suppliers’ documentation for the sample items to determine whether it met
           the documentation requirements for using the KX modifier; and


3
    Of the 90 suppliers, 7 suppliers had 2 items in the sample, and 3 suppliers were under investigation and not visited.


                                                             3
       •   requested NGS’s medical review staff review the documentation provided by the
           suppliers for those sample items that we determined did not meet the documentation
           requirements for use of the KX modifier.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to NGS had the required supporting documentation on file. Of the 100 sampled items, suppliers
had the required documentation on file for 48 items. 4 Suppliers did not have the required
documentation on file for the remaining 52 items. As a result, NGS made unallowable payments
totaling $3,986 for 52 of the 100 sampled items. Based on our sample, we estimated that NGS
paid approximately $55 million to suppliers who did not have the required documentation on file
to support the DMEPOS items with 2007 dates of service.

The types of missing documentation included:

       •   proof of delivery (28 of 100 items),

       •   physician’s order (28 of 100 items),

       •   use or compliant use followup documentation (18 of 78 applicable items),

       •   sleep study (3 of 78 applicable items), and

       •   physician’s statement (4 of 22 applicable items). 5

Additional details on the results of the sampled items are provided in Appendixes B and C.

These errors occurred because NGS’s electronic edits in place were not effective for determining
whether suppliers had the required documentation on file when they used the KX modifier on
claims. The edits could only determine whether the required KX modifier was on the claim.




4
 Three of the forty-eight sample items were from suppliers who were under investigation, and the sample items
were not considered errors.
5
    For 23 of the 52 items, suppliers were missing multiple required documents.


                                                           4
MISSING REQUIRED DOCUMENTATION

Proof of Delivery

Pursuant to the supplier standard (42 CFR § 424.57(c)(12)), the supplier “[m]ust be responsible
for the delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”
Also, the PIM, chapter 4, section 4.26 requires suppliers to maintain proof of delivery
documentation in their files for 7 years. Section 4.26.1 outlines proof of delivery requirements
for different methods of delivery. Section 4.26 also states that, for “any services, which do not
have proof of delivery from the supplier, such claimed items and services shall be denied and
overpayments recovered.”

For 28 of the 100 items, suppliers did not have proof of delivery documentation on file to support
billing for the DMEPOS. In all 28 instances, at least one of the following deficiencies occurred:
the delivery documentation was missing, the delivery documentation was not signed and dated
by the beneficiary or his or her designee, or the documentation for shipped items such as tracking
numbers or the supplier’s invoice was missing.

Physician’s Order

The PIM, chapter 5, sections 5.2.1 and 5.2.2, state that all DMEPOS suppliers are required to
keep on file a physician’s order. The treating physician must sign and date the order.
Section 5.2.3 states that if the supplier does not have a written order signed and dated by the
treating physician before billing Medicare, the item will be denied.

For 28 of the 100 items, suppliers did not have a physician’s order on file to support billing for
the DMEPOS. In all 28 instances, at least one of the following deficiencies occurred: the order
was missing, the order was not signed and dated by the physician, or the DMEPOS item was not
listed on the order.

Use or Compliant Use Followup Documentation

The LCDs for the CPAP, effective March 1, 2006, June 1, 2007, and July 1, 2007, and the LCDs
for the RAD effective April 1, 2006, June 1, 2007, and July 1, 2007, state that, for an E0601
(CPAP) and an E0470 (RAD) to be covered beyond the first 3 months of therapy, the supplier
must ascertain no sooner than the 61st day after initiating therapy that the CPAP is being used
and that the RAD is being compliantly used. For the CPAP, either the beneficiary or the treating
physician must confirm that the beneficiary is continuing to use the CPAP, and the supplier must
maintain documentation that the requirement has been met. For the RAD, the supplier must
obtain signed statements from both the treating physician and the beneficiary stating that the
RAD is being compliantly used. 6 The LCDs state that continued coverage of the device will be
denied if the requirements are not met.

For 18 of the 78 applicable items in our sample, suppliers did not have the use or compliant use
followup documentation on file to support billing for the DMEPOS. In all 18 instances, at least
6
    The LCD defines “compliantly used” for a RAD as an average usage of 4 hours out of 24 hours.


                                                         5
one of the following deficiencies occurred: the use or compliant use followup documentation
was missing, the use or compliant use followup was done within 60 days after initiating therapy,
the statement(s) required to be completed by the treating physician and/or the beneficiary were
missing for the RAD, or the item was billed beyond the first 3 months but before the supplier
obtained use or compliant use followup documentation.

Sleep Study

The LCDs for the CPAP (E0601), effective March 1, 2006, June 1, 2007, and July 1, 2007, and
the RAD (E0470), effective April 1, 2006, June 1, 2007, and July 1, 2007, require that the
beneficiary have a documented polysomnographic study. Additionally, polysomnographic
studies must not be performed by a DMEPOS supplier.

For 3 of the 78 applicable items, suppliers did not have sleep study documentation on file to
support billing for the DMEPOS. In all three instances, the sleep study documentation was
missing.

Physician’s Statement

Pursuant to the Act, § 1861(s)(12)(A), the physician must certify that the patient meets specific
criteria for therapeutic shoes. The LCDs for therapeutic shoes, effective March 1, 2006,
June 1, 2007, and July 1, 2007 and the Policy Articles for therapeutic shoes, effective
January 1, 2006, June 1, 2007, and July 1, 2007, state that DMEPOS items are covered if the
supplier obtains a signed and dated statement from the certifying or treating physician 7 saying
the patient meets specific criteria. The physician’s statement must be signed and dated some
time during the year before the date of service for therapeutic shoes, and the Policy Articles state
that the items will be denied if the requirements are not met.

For 4 of the 22 applicable items in our sample requiring a physician’s statement, suppliers did
not have the physicians’ statements on file to support billing for the DMEPOS. In all four
instances, at least one of the following deficiencies occurred: the physician’s statement of
medical need was missing, was incomplete, or was not timely.

KX MODIFIER SYSTEM EDITS

The LCDs require DMEPOS suppliers to include the KX modifier on claims submitted for
therapeutic shoes, CPAPs, RADs, and PRSS when the “specific required documentation is on
file.” Use of the KX modifier constitutes a statement that the suppliers have the documentation
on file that the policy requires for the particular item or service.

NGS established electronic edits to evaluate claims submitted by the DMEPOS suppliers.
However, the edits were not effective for determining whether suppliers had the required
documentation on file when they used the KX modifier on claims. The edits could only
determine whether the required KX modifier was on the claim.

7
 The certifying or treating physician is the physician who treats the underlying condition that requires the use of the
DMEPOS.


                                                           6
EFFECT OF UNALLOWABLE PAYMENTS

For 52 of the 100 items in our sample, suppliers who did not have the required documentation on
file to support their use of the KX modifier received $3,986 in payments. Based on our sample,
we estimated that NGS paid approximately $55 million in unallowable Medicare payments to
DMEPOS suppliers with 2007 dates of service.

RECOMMENDATIONS

We recommend that NGS:

   •   recover the $3,986 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the 28 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action, and

   •   develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $55 million.

AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our recommendations. NGS stated
that it recognized that there are many challenges in addressing the problems with the KX
modifier. These problems are well known to the DME MACs and have been highlighted in other
Office of Inspector General reports as well as multiple medical review audits conducted by NGS.
Additionally, NGS stated that there is a large volume of claims using the KX modifier and
focusing on these claims would require them to forego review of claims that ranked higher in
their medical review prioritization.

Nevertheless, NGS stated that it was committed to using its available resources to assure that it
meets coverage criteria and documentation requirements in its medical policies. NGS will
review its current provider outreach and education plan, assess compliance as dictated by its
medical review strategy, discuss with CMS the availability of additional funding to expand its
current activities, and explore collaboration with other DME MACs on plans to address problems
with usage of the KX modifier.

NGS’s comments are included in their entirety as Appendix D.




                                               7
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS) items for the year ending December 31, 2007, that DMEPOS suppliers claimed for
payment using the KX modifier under Medicare Part B.

SAMPLING FRAME

The sampling frame consisted of 1,390,415 items totaling $117,042,423 for the year ending
December 31, 2007. These items were for specific categories of DMEPOS (therapeutic shoes for
diabetics, continuous positive airway pressure systems, respiratory assist devices, and pressure
reducing support surfaces (groups 1 and 2)) claimed for payment using the KX modifier under
Medicare Part B.

SAMPLE UNIT

The sample unit was a line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of the Inspector General (OIG), Office of
Audit Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of potentially unallowable
payments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                               SAMPLE RESULTS

                                                          Number of        Value of
 Frame                        Sample        Value of      Unallowable    Unallowable
   Size     Frame Value        Size         Sample         Payments       Payments
1,390,415   $117,042,423        100          $7,992           52            $3,986




                ESTIMATES OF UNALLOWABLE PAYMENTS
              (Limits Calculated for a 90-Percent Confidence Interval)

                                         Total Estimated
                                       Unallowable Payments
                     Point estimate         $55,422,915
                     Lower limit             43,750,627
                     Upper limit             67,095,204
                                                    APPENDIX C: ERROR DETAILS

                                                       DMEPOS              Total       Total     CPAP         TS*        RAD        PRSS         Line Items
                    TYPES OF                            Required             in      Number      Related     Related    Related    Related       With Only
        MISSING DOCUMENTATION                              for            Sample     of Errors   Errors      Errors     Errors     Errors        One Error
 Proof of Delivery                                         All              100             28         19          6          3          0                 7
 Physician’s Prescription/Order                            All              100             28         18          8          2          0                15
 Use or Compliant Use Followup Documentation           CPAP/RAD              78             18         12          0          6          0                 5
 Sleep Study                                           CPAP/RAD              78              3          3          0          0          0                 1
 Physician’s Statement                                  TS, PRSS             22              4          0          4          0          0                 1

  Total Errors (Duplicated Count)                                                           81        52          18         11            0             29




                  CATEGORIES OF                               Dollars      Items      Items      Items       Dollars      1         2            3      Multiple
        DURABLE MEDICAL EQUIPMENT                             Tested       Tested    Allowed†    Errors     in Error    Error     Errors       Errors   Errors ‡
 Continuous Positive Airway Pressure Systems                 $4,394.77         66          32        34     $2,540.47       19        12            3         15
 Therapeutic Shoes for Diabetics                              2,405.62         22          11        11      1,104.07        6         3            2           5
 Respiratory Assist Devices                                   1,191.66         12           5         7        341.53        4         2            1           3
 Pressure Reducing Support Surfaces (groups 1 and 2)                  0         0           0         0             0        0         0            0           0

  Totals                                                     $7,992.05        100           48       52     $3,986.07      29        17            6           23


*Therapeutic shoes are a one-time purchase.
†Three of these forty-eight sample items were for suppliers who were under investigation.
‡Twenty-three of the fifty-two unallowable sampled items had multiple errors.

CPAP = continuous positive airway pressure systems
TS = therapeutic shoes for diabetics
RAD = respiratory assist devices
PRSS = pressure reducing support surfaces (groups 1 and 2)
                                                                                                           Page 1 of3


                                     APPENDIX D: AUDITEE COMMENTS 




.~National GC!vernment
  ""             services. 	                                                             Medicare
   Nil tinnill Governm('nt So.!rvi(l.,'S, Inc.
   ~11"j  KlU lI' i{..., d
   Ind iil napo lis. IndIana 46250·1'JJ6
   A   CM~   Cl'lllrnrird ASI'llI




   TO: 	                    Mr. James c. Cox, Regional Inspector General for Audit Services

   FROM: 	                  Mr. David Barnett, Project Manager Jurisdiction B DME MAC

   SUBJECT: 	               Office of Inspector General (OIG) Draft Report: "Review of Jurisdiction B
                            Medicare Payments for Selected Durable Medical Equipment Claims wi th the KX
                            Modifier for Calendar Year 200T' (A-05-09-00094)

   Date: 	                  July 6, 2010


   Thank you for the opportunity to review and comment on the above-referenced OIG draft report.

   The KX modifier is added to claims submitted to the Durable Medical Equipment Medicare
   Administrative Contractor (DME MAC) when the requirements specified in a Local Coverage
   Determination (LCD) have been met. Most commonly it is used as an attestation by the supplier
   that the coverage criteria for the durable medical equipment, orthotics, prosthetics or supplies
   (DMEPOS) item being billed have been met.

   The OIG reviewed 100 claims with dates of service in 2007 that were processed by National
   Government Services (NGS), the Jurisdiction B DME MAC, for therapeutic shoes for diabetics,
   continuous positive airway pressure (CPAP) systems, respiratory assist devices (RAD), and
   pressure reducing support surfaces (groups 1 and 2) and that included the KX modifier. They
   found that 52% of the sampled claims did not have all of the documentation required to support
   coverage of the item.

   DIG Recommendations

   The OIG recommended that NGS:

               Recover the $3,986 in payments for specific DMEPOS items claimed for which the
               suppliers did not have the required documentation,
           • 	 Review other payments for DMEPOS related to their unallowable sample items and
               recover any additional unallowable payments,
           • 	 Notify CMS of the 28 suppliers who did not meet the supplier standard for maintaining
               proof of delivery so eMS can take appropriate action, and
           • 	 Develop a corrective action plan to improve the effectiveness of the KX modifier and 

               potentially save an estimated $55 million. 



                                                                                              CAllsl
                                                                                                         Page 2 of3




NGS Response

Problems that are associated with the use of the KX modifier are well known to the DME MACs.
The lack of documentation to suppo rt use of the KX modi fier has been highlighted in other OIG
reports on specific med ical policies including those on su pport surfaces (1997 and 2009),
therapeu tic shoes (1998), and negati ve pressure wound therapy pumps (2007). These reports
identified problems on a national level among all DME contractors, w hich is to be expected
considering the large numbe r of national or regional suppliers During the co urse of multiple
med ica l review audits conducted by NGS, we have also found that documenta tion verifying tha t
the coverage criteria have been me t is ofte n no t present for claims on w hich the supplier has used
the KX modi fier. In particular, over the past year, we have conducted audits on therapeutic
shoes, CPAP devices, and grou p 2 su pport surfaces with results similar to those found by the
OIG.

In order to formulate a response to the problems identified in the OlG report, it is important to
understand the scope of the issue and resources that are available to the DME MAC.

The Jurisdiction B DME MAC is p rojected to receive approximately 15 million claims in calendar
yea r 2010. Over 99% of those claims will be sent electronically wi thout. When submitting an
electronic claim, it is not possible for the supplier to include the documents that would veri fy that
all of the coverage crite ria and documentation requ ire ments had been met. Even on the 1% of
claims th at are rece ived hard copy, the supplier is not required to include all of the documents
req uired to support coverage of the claim . The onl y way for the DME MAC to conduct a review
similar to that perfo rmed by the OIG is to send an Additional Documentation Request (ADR)
letter to the supplier asking fo r d ocumentation related to the claim and then perform complex
manual medica l review .

In the first quarter of 2010, NGS received approximately 1 million claims wi th a KX modifier.
Projecting this to the fu!1 year, res ults in an estimate that the Jurisd iction B DME MAC will
receive approximately 4 million claims wi th a KX modi fier in 2010. NGS is funded to perfo rm
complex manual med ical review on less than 1% of that number of claims this year. NGS would
no t be able to rev iew all, or even a significant pe rcentage of the KX modifier claim s, unless CMS
provided additional funding.

Furthermore, there are man y DME MAC medical policies that d o not use the KX modi fier as an
attestation tha t cove rage crite ria have been met, incl uding but not limited to, Glucose Monitors,
Oxygen, Surgical Dressings, and Nebulizers (except for one specific, low volume drug). Data
analysis dri ves our medical rev iew strategy, establishing our priori ties for using our limited
medical review resources. Focusing our review on KX modifie r claims would require us to
forego review of cla ims that ranked highe r in our medical review prioritiza tion.
                                                                                                        Page 3 of3




NGS is aware of the problems with the use of the KX modifier. However, considering the limited
information conce rning medical necessity that ca n be submitted electronically wi th a claim and
our abili ty to perform manual review on only a small fraction of claims, it does have some value.
If the supplier determines th at the coverage criteria have not been met and therefore does not
add the KX modifier to the claim, the claim wi ll be denied by an automated edit. Without the KX
modifier op tion, all o f those claims would otherwise be paid.

Althoug h there are many challenges in addressing the problems with the KX modifier identified
in the D IG report, NGS is committed to using the resources that are ava ilable to assure that
coverage crite ri a and docume ntation require ments in our medica l policies are met.

NGS concurs wi th the speci fic Ole recommendations:

          NGS will recover the $3,986 in payments fo r specific DMEPOS items identified in the
          OIG report.

          Conce rning related items, for those devices that are rented (i.e., CPAP, RAD, and su pport
          surfaces), NGS will recover pa yments made for other rental months for those
          beneficiaries. For devices th at have related accesso ries (i.e., CPAP and RAD), NGS will
          also recover overpayments made for those accessories.

     • 	 NGS will notify CMS of the 28 suppliers who did not meet proof of del ivery
          requirements.

          Concernin g an action plan to ad dress problems wi th the KX modifier, NGS will:
             o 	 Review O Uf current Provider Outreach and Education (POE) plan to assure that
                   correct usage of the KX modifier is emphasized in O Uf presentations, web-based
                   training, and o the r ed uca tion al inte rventio ns;
               o 	 Assess com pliance du ring the course of complex manual medica l review of KX
                   modifier claims that are dictated by OU f Medical Review Strategy;
               o 	 Discuss w ith e MS the ava ilability of add itional funding to expand OUf current
                   POE and MR activities;
               o 	 Explore collaboration wi th the other DME MACs on plans to address problems
                   with usage of the KX modifier.


Sin cere ly,




David Barnett
Project Manager, Jurisd icti on B DME MAC
